ml
COCKLE

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68 102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850 No. 19-123
SHARONELL FULTON, et al.,
Petitioners,

v.
CITY OF PHILADELPHIA, et al..
Respondents.

AFFIDAVIT OF SERVICE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 19th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMIC] CURIAE CENTER FOR THE STUDY OF
SOCIAL POLICY AND NATIONAL CENTER FOR LESBIAN RIGHTS IN SUPPORT OF RESPONDENTS in the above

entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3

calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
SHANNON P. MINTER
SHANNAN WILBER
CATHERINE SAKIMURA
JULIE WILENSKY
Counsel of Record
NATIONAL CENTER FOR
LESBIAN RIGHTS
870 Market Street, Suite 370
San Francisco, CA 94102
(415) 392-6257
jwilensky@nclrights.org
Counsel for Amici Curiae

Subscribed and sworn to before me this 19th day of August, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GEHERAL NOTARY-State of Nebraska

RENEE J. GOSS
ity Comm, Exp. Saplemiber 8, 2023

Shoo Oudiaw-h, Gb le

 

 

Notary Public

Affiant 39905
Sharonell Fulton v. City of Philadelphia — Service List

Mark Leonard Rienzi

The Becket Fund for Religious Liberty

1200 New Hampshire Ave., N.W.

Suite 700

Washington, DC 20036

(202) 955-0095

mrienzi@becketlaw.org

Counsel for Petitioners Sharonell Fulton et al.

Neal Kumar Katyal

Hogan Lovells US LLP

555 Thirteenth St., N.W.

Washington, DC 20004

(202) 637-5528

neal.katyal@hoganlovells.com

Counsel for Respondents City of Philadelphia, Department of Human Services
for the City of Philadelphia, Philadelphia Commission on Human Relations

Leslie Cooper

American Civil Liberties Union

125 Broad Street

New York, NY 10004

(212) 519-7815

lcooper@aclu.org

Counsel for Intervenor-Respondents Support Center for Child Advocates and
Philadelphia Family Pride
